                                                             United States Attorney
                                                             District of New Jersey
FOR IMMEDIATE RELEASE                                        CONTACT: Rebekah Carmichael
November 15, 2010                                                     Office of Public Affairs
www.justice.gov/usao/nj                                               (973) 645-2888


                  FOUNDERS OF LUXURY CHARTER JET COMPANY
                    CONVICTED IN ILLEGAL FLIGHT SCHEME

       NEWARK, N.J. – Michael Brassington – the President, CEO, chief pilot and co-founder
of luxury charter jet company Platinum Jet Management LLC; and his brother, Paul Brassington,
a Vice President and co-founder of the company, were convicted today of offenses arising from a
conspiracy to commit continuous willful violations of regulatory requirements for the operation
of commercial charter aircraft.

        The jury returned a guilty verdict after nearly four days of deliberation following a four-
week trial before United States District Judge Dennis M. Cavanaugh. Michael Brassington, 37,
and Paul Brassington, 31, both of Ft. Lauderdale, Fla, were each convicted of Count One of the
Indictment, which charged conspiracy to commit wire fraud and to defraud the Federal Aviation
Administration (FAA). Michael Brassington was also convicted of six counts of rendering false
statements in relation to FAA-required paperwork to conceal the fact that ill-qualified or unrested
pilots were flying charter flights. Michael Brassington was also convicted of lying in a National
Transportation Safety Board accident report relating to a Platinum Jet crash and of endangering
the safety of an aircraft in flight.

        U.S. Attorney Fishman stated: “The defendants chose to commit crimes in the pursuit of
profits over public safety. A pattern of fraud and deception is not a business plan. Today’s
verdict confirms that there are consequences when you break the law to boost your bottom line.”

       According to the evidence at trial:

        From November 2002 to November 2003, the defendants operated Platinum Jet as an on-
demand commercial jet charter company without having a certificate, known as a “Part 135
certificate,” which is required by federal aviation regulations for charter operations and is granted
only after a rigorous application process. That process requires operators, among other things, to
develop comprehensive operating, training and maintenance manuals that will govern their
charter operations. The defendants lied in contractual documents faxed to charter brokers in
other states about Platinum Jet’s illegal regulatory and safety status. They operated more than
115 commercial flights during this period – with pilots who, in some instances, did not know
how to fly the airplanes – for more than $3 million in revenue. The pilots flew athletes and other
celebrities, including Luciano Pavarotti, Joe Montana, the members of Duran Duran, Ozzy
Osbourne, Snoop Dogg, Michael Stipe, Shaquille O'Neal, Diddy, Jon Bon Jovi, Jay-Z and
Beyonce Knowles.
         In November 2003, the defendants and their co-conspirators started sharing a Part 135
certificate, or “piggybacking,” with a Part 135 certificate holder based in Alabama called Darby
Aviation. The defendants then continued to violate FAA rules by dispatching unqualified pilots
and pilots without the FAA-required amount of rest to fly chartered flights. To hide the fact that
they were breaking the law, Michael Brassington and other conspirators signed FAA-mandated
flight logs for more than 30 charter-brokered flights, falsely indicating that those charters were
private, non-profit flights, which are subject to less strict regulation than commercial flights.

        According to witnesses and documents admitted at trial, defendant Michael Brassington
also devised a dangerous and fraudulent “tankering” scheme, in which the conspirators – in order
to cut costs and take advantage of less expensive fuel contracts at locations including Teterboro
Airport – would over-fuel aircraft. As a result, the centers-of-gravity of the aircraft were too far
forward for safe takeoff. Michael Brassington and his co-conspirators would then falsify FAA-
required weight-and-balance graphs to conceal the tankering and dangerous weight configuration.

         It was this dangerous tankering, according to the evidence, that was the primary
contributing factor in the crash of a Platinum Jet aircraft after failing to lift upon takeoff at
Teterboro Airport in February 2005. In November 2004, Michael Brassington told a first officer
with Platinum Jet that one of the aircraft, Jet N370V, weighed considerably less than the weight
reflected on FAA-required weight-and-balance graphs located on that aircraft. The first officer
testified at trial that in reliance on this representation from Michael Brassington, he over-fueled
Jet N370V on the day of the crash and caused its center of gravity to exceed its forward limit for
takeoff, endangering the aircraft.

       The conspiracy count carries a statutory maximum penalty of five years in prison and a
$250,000 fine; the endangering the safety of aircraft counts carry a statutory maximum penalty of
20 years in prison and a $250,000 fine; and each of the false statements counts carry a maximum
penalty of five years in prison and a $250,000 fine. Both defendants are scheduled to be
sentenced on March 17, 2011.

       Three of the defendants’ co-conspirators have already pleaded guilty to the conspiracy
charge. Andre Budhan pleaded guilty on June 22, 2009; Joseph Singh pleaded guilty on July 7,
2009; and Francis Vieira pleaded guilty on September 27, 2010. The case against Brian
McKenzie was dismissed. John Kimberling is awaiting trial in Florida.

       U.S. Attorney Fishman credited special agents of the Department of Transportation,
Office of the Inspector General, under the direction of Inspector General Calvin L. Scovel III and
Special Agent in Charge Ned E. Schwartz, for the investigation leading to today’s guilty plea.

       The government is represented by Assistant U.S. Attorneys Scott B. McBride of the U.S.
Attorney’s Office Health Care and Government Fraud Unit, and J Fortier Imbert of the Office’s
Criminal Division in Newark.



                                                -2-
       As for the charges and allegations against defendant John Kimberling, he is considered
innocent unless and until proven guilty.


10-324                                      ###

Defense counsel:

Michael Brassington: Michael Salnick, Esq., and Jack Fuchs, Esq., West Palm Beach, Fla.

Paul Brassington: Bruce E. Reinhart, Esq., West Palm Beach, Fla.




                                              -3-
